Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        MEDICARE COMPLIANCE
              REVIEW OF
         MEMORIAL HOSPITAL
         FOR CALENDAR YEARS
            2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      January 2014
                                                      A-07-13-01124
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Memorial Hospital did not fully comply with Medicare requirements for billing inpatient and
outpatient services, resulting in overpayments of approximately $161,000 over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare paid
hospitals $151 billion, which represents 45 percent of all fee-for-service payments; therefore, the
Office of Inspector General must provide continual and adequate oversight of Medicare
payments to hospitals.

The objective of this review was to determine whether Memorial Hospital (Memorial) complied
with Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay. CMS pays for hospital outpatient services on a rate-per-service basis that
varies according to the assigned ambulatory payment classification.

Memorial is a nonprofit level II trauma center consisting of three hospitals—Memorial Hospital
Central, Memorial Hospital North, and Memorial Hospital for Children, all in Colorado Springs,
Colorado—which between them have over 600 beds. Medicare paid Memorial approximately
$90.3 million for 7,277 inpatient and 63,266 outpatient claims for services provided to
beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims History data.

Our audit covered $2,164,461 in Medicare payments to Memorial for 160 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 57 inpatient and
103 outpatient claims with dates of service in CYs 2010 or 2011.

WHAT WE FOUND

Memorial complied with Medicare billing requirements for 112 of the 160 inpatient and
outpatient claims we reviewed. However, Memorial did not fully comply with Medicare billing
requirements for the remaining 48 claims, resulting in overpayments of $161,355 for CYs 2010
and 2011. Specifically, 15 inpatient claims had billing errors, resulting in overpayments of
$93,594, and 33 outpatient claims had billing errors, resulting in overpayments of $67,761.
These errors occurred primarily because Memorial did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.
Specifically, these errors occurred primarily because of human error or lack of training.


Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                   i
WHAT WE RECOMMEND

We recommend that Memorial:

    •   refund to the Medicare contractor $161,355, consisting of $93,594 in overpayments for
        15 incorrectly billed inpatient claims and $67,761 in overpayments for 33 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS AND OUR RESPONSE

In written comments on our draft report, Memorial concurred with all but one of our findings and
described corrective actions that it had implemented or planned to implement. Of the $161,355
in overpayments we identified, Memorial concurred with our findings whose questioned costs
totaled $159,820, but did not concur with questioned costs of $1,535. Specifically, Memorial did
not concur with our finding that for nine outpatient claims it incorrectly billed Medicare for
services that were already included in the payment for intensity modulated radiation therapy
(IMRT) planning services billed on the same claim. Memorial stated that the services in
question were performed on separate dates and were not part of IMRT planning.

Memorial’s comments did not cause us to change our findings and recommendations. Neither
during our review nor in its comments on our draft report did Memorial provide any
documentation to support its assertion that certain billed services were not related to the
development of an IMRT plan. Accordingly, we maintain that this finding and the associated
questioned costs of $1,535 remain valid.




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                             ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Memorial Hospital .........................................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Incorrectly Billed Diagnosis-Related Group Codes ......................................................4
            Incorrectly Billed as Inpatient .......................................................................................4
            Incorrectly Billed as Separate Inpatient Stays ...............................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported ............................5

       Billing Errors Associated With Outpatient Claims................................................................5
             Insufficiently Documented Services .............................................................................5
             Incorrectly Billed Services With Modifier -59..............................................................5
             Incorrectly Billed Healthcare Common Procedure Coding System Codes ...................6
             Incorrectly Billed Intensity Modulated Radiation Therapy Planning Services .............6
             Incorrect Number of Units Billed .................................................................................6

RECOMMENDATIONS ...............................................................................................................7

AUDITEE COMMENTS...............................................................................................................7

OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................................7

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................8

        B: Results of Review by Risk Area ...................................................................................10

        C: Auditee Comments ........................................................................................................11

Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                                                             iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Memorial Hospital (Memorial) complied with Medicare
requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient and outpatient claims paid in excess of charges,

    •    inpatient short stays,

    •    inpatient same-day discharges and readmissions,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    inpatient hospital-acquired conditions and present-on-admission indicator reporting,

    •    inpatient claims with payments greater than $150,000,

    •    inpatient claims billed with kyphoplasty services,

    •    outpatient claims billed with modifiers,

    •    outpatient claims with payments greater than $25,000,

    •    outpatient intensity modulated radiation therapy (IMRT) planning services,

    •    outpatient claims billed for anti-cancer drugs,

    •    outpatient claims billed with observation services that resulted in outlier payments, and

    •    outpatient surgeries billed with units greater than one.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                              2
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Memorial Hospital

Memorial is a nonprofit level II trauma center consisting of three hospitals—Memorial Hospital
Central, Memorial Hospital North, and Memorial Hospital for Children, all in Colorado Springs,
Colorado—which between them have over 600 beds. Medicare paid Memorial approximately
$90.3 million for 7,277 inpatient and 63,266 outpatient claims for services provided to
beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,164,461 in Medicare payments to Memorial for 160 claims that we
judgmentally selected as potentially at risk for billing errors. These 160 claims consisted of 57
inpatient and 103 outpatient claims. All of these 160 claims had dates of service in CYs 2010 or
2011. We focused our review on the risk areas that we had identified as a result of prior OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements but did
not use medical review to determine whether the services were medically necessary. This report
focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by Memorial for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                              FINDINGS

Memorial complied with Medicare billing requirements for 112 of the 160 inpatient and
outpatient claims we reviewed. However, Memorial did not fully comply with Medicare billing
requirements for the remaining 48 claims, resulting in overpayments of $161,355 for CYs 2010
and 2011. Specifically, 15 inpatient claims had billing errors, resulting in overpayments of



Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                  3
$93,594, and 33 outpatient claims had billing errors, resulting in overpayments of $67,761.
These errors occurred primarily because Memorial did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.
Specifically, these errors occurred primarily because of human error or lack of training.

See Appendix B for the results of our review by risk area.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Memorial incorrectly billed Medicare for 15 of 57 selected inpatient claims, which resulted in
overpayments of $93,594.

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). In addition, the Manual states: “In order
to be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).

For 9 out of 57 selected claims, Memorial billed Medicare for incorrect DRG codes. Memorial
officials attributed this to human error or lack of training. As a result of these errors, Memorial
received overpayments of $73,037.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

For 3 out of 57 selected claims, Memorial incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services.
Memorial officials stated that these errors occurred due to human error or lack of training. As a
result of these errors, Memorial received overpayments of $11,833. 2

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:




2
 Memorial may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor before the issuance of our report.



Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                                 4
        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

For 2 out of 57 selected claims, Memorial billed Medicare separately for related discharges and
readmissions within the same day. Memorial officials stated that these errors occurred due to
human error or lack of training. As a result of these errors, Memorial received overpayments of
$4,449.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 1 out of 57 selected claims, Memorial received a reportable medical device credit for
a replaced device from a manufacturer but did not adjust its inpatient claim with the
proper value and condition codes to reduce payment as required. Memorial officials
attributed this error to a lack of proper policies and procedures. As a result of this error,
Memorial received an overpayment of $4,275.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Memorial incorrectly billed Medicare for 33 of 103 selected outpatient claims, which resulted in
overpayments of $67,761.

Insufficiently Documented Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

For 4 out of 103 selected claims, Memorial incorrectly billed Medicare for services that were not
supported in the medical record. Memorial officials attributed this to human error. As a result of
these errors, Memorial received overpayments of $40,986.

Incorrectly Billed Services With Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It also states: “The ‘59’ modifier is used to indicate a
distinct procedural service…. This may represent a different session or patient encounter,



Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                 5
different procedure or surgery, different site or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1).

For 8 out of 103 selected claims, Memorial incorrectly billed Medicare for HCPCS codes with
modifier -59 even though the services were already included in the payments for other services
billed on the same claim. Memorial officials stated that these errors occurred due to human error
or lack of training. As a result of these errors, Memorial received overpayments of $13,671.

Incorrectly Billed Healthcare Common Procedure Coding System Codes

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). The Manual states: “In order to
be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).

For 8 out of 103 selected claims, Memorial submitted the claims to Medicare with incorrect
HCPCS codes. Memorial officials attributed this to human error or lack of training. As a result
of these errors, Memorial received overpayments of $10,040.

Incorrectly Billed Intensity Modulated Radiation Therapy Planning Services

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It also states that certain services should not be billed when
they are performed as part of developing an IMRT plan (chapter 4, § 200.3.2).

For 9 out of 103 selected claims, Memorial incorrectly billed Medicare for services that were
already included in the payment for IMRT planning services billed on the same claim. These
services were performed as part of developing an IMRT plan and should not have been billed in
addition to the HCPCS code for IMRT planning. Memorial officials said that they believed that
all nine claims were billed correctly. As a result of these errors, Memorial received
overpayments of $1,535.

Incorrect Number of Units Billed

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833 (e)). The Manual states: “In order
to be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2). The Manual also states: “It is … of great importance that hospitals billing for
[drugs] make certain that the reported units of service of the reported HCPCS code are consistent
with the quantity of a drug … that was used in the care of the patient” (chapter 17, § 90.2.A). If
the provider is billing for a drug, according to the Manual, “[w]here HCPCS is required, units are
entered in multiples of the units shown in the HCPCS narrative description. For example, if the
description for the code is 50 mg, and 200 mg are provided, units are shown as 4….” (chapter 17,
§ 70).




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                  6
For 4 out of 103 selected claims, Memorial incorrectly billed the number of units for
chemotherapy drugs charged under HCPCS code J9001. Memorial officials stated that these
errors occurred due to human error or lack of training. As a result of these errors, Memorial
received overpayments of $1,529.

                                      RECOMMENDATIONS

We recommend that Memorial:

    •   refund to the Medicare contractor $161,355, consisting of $93,594 in overpayments for
        15 incorrectly billed inpatient claims and $67,761 in overpayments for 33 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                      AUDITEE COMMENTS

In written comments on our draft report, Memorial concurred with all but one of our findings and
described corrective actions that it had implemented or planned to implement. Of the $161,355
in overpayments we identified, Memorial concurred with our findings whose questioned costs
totaled $159,820, but did not concur with questioned costs of $1,535. Specifically, Memorial did
not concur with our finding that it incorrectly billed Medicare for outpatient services that were
already included in the payment for IMRT planning services billed on the same claim. Memorial
stated that the services in question (“simulations,” in Memorial’s term) were performed on
separate dates and were not part of IMRT planning. Specifically, according to Memorial, the
initial simulations were for prescription only and were performed before it was decided to
administer IMRT to those patients. When it was decided to treat these patients with IMRT,
“… no other simulations were done in conjunction with the plan.”

Memorial’s comments are included in their entirety as Appendix C.

                      OFFICE OF INSPECTOR GENERAL RESPONSE

Memorial’s comments did not cause us to change our findings and recommendations. Neither
during our review nor in its comments on our draft report did Memorial provide any
documentation to support its assertion that certain billed services were not related to the
development of an IMRT plan. Accordingly, we maintain that this finding and the associated
questioned costs of $1,535 remain valid.




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                 7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,164,461 in Medicare payments to Memorial for 160 claims that we
judgmentally selected as potentially at risk for billing errors. These 160 claims consisted of 57
inpatient and 103 outpatient claims. All of these 160 claims had dates of service in CYs 2010 or
2011.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
focused medical review to determine whether the services were medically necessary.

We limited our review of Memorial’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Memorial for Medicare reimbursement.

We conducted our fieldwork from February through May 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Memorial’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

    •   obtained information on known credits for replaced medical devices from the device
        manufacturers for CYs 2010 and 2011;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 160 claims (57 inpatient and 103 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the itemized bills and medical record documentation provided by Memorial to
        support the selected claims;


Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                  8
    •   requested that Memorial conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   discussed the incorrectly billed claims with Memorial personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Memorial officials on May 30, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                              9
                           APPENDIX B: RESULTS OF REVIEW BY RISK AREA

                                                                                   Value of         Claims           Value of
                                                                    Selected       Selected        With Over-          Over-
                         Risk Area                                  Claims         Claims          payments          payments
Inpatient
Claims Billed With High Severity Level Diagnosis-
                                                                           26        $801,095                    4      $46,669
Related Group Codes
Claims Paid in Excess of Charges                                             6        114,598                    5         26,368
Short Stays                                                                  5          18,958                   3         11,833
Same-Day Discharges and Readmissions                                         4          29,313                   2          4,449
Manufacturer Credits for Replaced Medical Devices                            2          53,853                   1          4,275
Hospital-Acquired Conditions and Present-on-
                                                                           12         200,891                    0                0
Admission Indicator Reporting
Claims With Payments Greater Than $150,000                                   1        191,003                    0                0
Claims Billed With Kyphoplasty Services                                      1           9,907                   0                0
 Inpatient Totals                                                          57      $1,419,618                  15       $93,594


Outpatient
Claims Billed With Modifiers                                               45        $253,098                    9      $27,132
Claims With Payments Greater Than $25,000                                    4        183,737                    2         26,050
Claims Paid in Excess of Charges                                           12           15,111                   8         11,345
Intensity Modulated Radiation Therapy Planning
                                                                           12           89,853                 10           1,705
Services
Claims Billed for Anti-Cancer Drugs                                          8          44,167                   4          1,529
Manufacturer Credits for Replaced Medical Devices                            5          99,015                   0                0
Claims Billed With Observation Services That
                                                                             9          39,463                   0                0
Resulted in Outlier Payments
Surgeries Billed With Units Greater Than One                                 8          20,399                   0                0
 Outpatient Totals                                                        103        $744,843                  33       $67,761


 Inpatient and Outpatient Totals                                          160      $2,164,461                  48     $161,355

 Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and outpatient
 claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of billing errors we
 found at Memorial. Because we have organized the information differently, the information in the individual risk areas in this
 table does not match precisely with this report’s findings.




 Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                                      10
                                    APPENDIX C: AUDITEE COMMENTS





                                                    Memorial Hospital
                                                       UNIVERSITY OF COLORADO HEALTH




           November 25, 2013



           Mr. Patrick J. Cogley
           Regional Inspector General of Audit Services
           Office of Audit Services, Region VII
           601 East 121h Street, Room 0429
           Ka nsas City, MO 64106


           RE : Report Number: A-07-13-01124


           Dear Mr. Cogley


           We are in receipt of your draft report entitled Medicare Compliance Review of Memorial Hospital for
           Calendar Years 2010 and 2011. In response to your request, this letter contains Memorial Hospital's
           co mments with respect to the draft report. We would like to thank the auditors involved in this review.
           They were very thorough, professional and helpful. We concur with the auditor's findings as reported
           except where noted below. Memorial has developed a corrective action plan addressing each of the
           billing errors, as follows:


           Incorrectly Billed Diagnosis Related Group Codes


           We concur w ith the auditors' findings. Memorial has provided additional education for the inpatient
           coding staff on the selection of principal and/or secondary diagnosis codes when applying the ICD-9
           coding guidelines and conve ntions. Additionally, the coding department continues to audit coders on a
           regular basis with the compliance department monitoring its activity.


           Incorrectly Billed as Inpatient


           We concur with the auditors' findings. The case management department has increased the number of
           employees and hours of operation to provide timely review of admissions including in the emergency
           department. Case management will continue to educate physicians on an ongoing basis regarding the
           criteria needed for both inpatient and observation. In addition, the case managers review physician
           orders for any status change and communicate with the physicians regarding any needed updates.




                         1400 East Boulder • Colorado Springs. CO 80909 • Phone: 719.365.5000 • www.memorialhealthsystem.com




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                                                11
           Incorrectly billed as Separate Inpatient Stays


           We concur with the finding. In order to ensure better communication between the relevant
           departments, case management will continue to document in the billing system, but w ill also notify
           a designated contact person by e-mail on how to handle a readmission. The contact person will
           follow up to ensure correct billing. The billing department has updated their protocol for the conflict
           report to review billing notes. Both accounts will be reviewed for case management's
           documentation regarding their determination on how the accounts should be billed. The billers have
           been educated on this new process.


           Manufacturer Credits for Replaced Medical Devices Not Reported


           We concur with the finding. An edit has been placed within our billing system to stop a claim with a
           diagnosis code that indicates there was a device replacement. This will ensure that all of these claims
           will be reviewed and the appropriate condition and/or value codes will be applied as needed.


           Insufficiently Documented Services


           We concur w ith the finding. Memorial has recently implemented the Epic software package for
           electronic medical records. The system will eliminate the wide spread use of paper records and limit the
           possibility of documentation not being available.


           Incorrectly Billed Services with Modifier- 59


           We concur with the finding. Memorial has provided training to its coding staff with respect to the proper
           use of Modifier- 59.


           Incorrectly Billed Healthcare Common Procedure Coding System Codes


           We concur with the finding. Memorial ha s provided training to its cod ing staff with respect to the issues
           identified through this audit, e.g. coding for ear irrigation, coding for component s of a surgery when
           completed through the same incisions, etc.


           Incorrectly Billed Intensity Modulated Radiation Therapy Planning Services


           We do not concur with the findings. Based on our understanding of the manual's requirements from
           chapter 4, § 200.2.2, we believe there are t wo key considerations that need to be addressed in
           determining if certain services should be billed as part of developing an IMRT plan. First, we need to
           determine if those certain services such as the sim ulation was performed on the same day as the IMRT
           planning. With respect to the claims in question, the services were performed on different dates. Then,
           we need to determine if those services, i.e. the simulation, was performed as part of developing the
           IMRT plan . The key statement in the rule regarding those certain services is " ... when directly linked to




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                                          12
            and performed as part of developing an IMRT plan ... " With regards to the claims in question, they w ere
            not part of the IMRT planning. When the initial simulation was done, it was for prescription only and it
            wasn't known whether the patient would get IMRT at that point in time. When it was decided if
            patient's treatment would be IMRT, no other simu lations were done in conjunction w ith the plan. These
            were separate events at different points in time with different intents.


            Incorrect Number of Units Billed


            We concur w ith the findings. Memorial has educated its staff on the proper billing of chemotherapy
            drugs charged under HCPCS code J9001.


            Memorial is committed to compliant and accurate billing and coding. By way of its Compliance Program,
            Memorial w ill continue to work to identify areas of risk for non-compliance and implement stronger
            controls and, if necessary, promptly resolve identified deficie ncies.


            If yo u have any questions or concerns, feel free to contact me at (719 ) 365-2.309 or
            john .wyckoff@uchealth.org.




           'f~7d~
           John D. Wyckoff, CPA
            Regional Compliance Officer
            Memorial Hospital part of UCHealth formerly know n as Memorial Hea lth System




Medicare Compliance Review of Memorial Hospital (A-07-13-01124)                                                         13
